2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

'OCKLE

Le g al Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-76

DEPUTY SHERIFF MARTIN MARQUARDT,
Petitioner,
v.
WILLIAM FLETCHER,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of September, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the REPLY BRIEF FOR THE PETITIONER in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
RICHARD H. SEAMON LORNA K. JORGENSEN
1297 Highland Drive Ada County Deputy
Moscow, Idaho 83843 Prosecuting Attorney

Counsel of Record
JAN M. BENNETTS
Ada County Prosecuting

Attorney
200 W. Front Street,

Room 3191
Boise, Idaho 83702
Telephone: (208) 287-7700
Email: ljorgensen@

adacounty.id.gov
Counsel for Petitioner

Subscribed and sworn to before me this 27th day of September, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : Mitte, A Chk
State of Nebraska * ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant. 38738
SERVICE LIST

Sarah Peterson
Counsel of Record
Katharine Van Dusen
Coblentz Patch Duffy & Bass LLP
One Montgomery Street, Suite 3000
San Francisco, CA 94104
415-391-4800
Ef-sep@cpdb.com
Counsel for Respondent William Fletcher
